Audit Report No. D-2011-014              November 2, 2010






        Weaknesses in Awarding Fees for the Broad 

           Area Maritime Surveillance Contract


Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
BAMS                          Broad Area Maritime Surveillance
CPAF                          Cost-Plus-Award-Fee
FAR                           Federal Acquisition Regulation
FDO                           Fee Determining Official
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                               and Logistics
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRGINIA 22202-4704 




                                                                   November 2,2010

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
              COMMANDER, NAVAL AIR SYSTEMS COMMAND
              PROGRAM EXECUTIVE OFFICER,
                 UNMANNED AVIA nON AND STRIKE WEAPON
              DEPUTY ASSISTANT COMMANDER FOR CONTRACTS,
                 NAVAL AIR SYSTEMS COMMAND

SUBJECT: Weaknesses in Awarding Fees for the Broad Area Maritime Surveillance
         Contract (Report No. D-2011 -014)

We are providing this report for review and comment. This is first in a series of reports
on the contract supporting the Broad Area Maritime Surveillance program. The Broad
Area Maritime Surveillance contract is worth $1 .8 billion, and program officials did not
have the proper controls in place to assess contractor performance and provide fair and
reasonable award fee detenninations for the contractor. We considered management
comments on a draft of this report when preparing the final report.

DOD Directive 7650.3 requires that recommendations be resolved promptly. Some of
the comments were only partially responsive, nonresponsive, or otherwise need
additional consideration. Therefore, we request additional comments from the Program
Executive Officer, Unmanned Aviation and Strike Weapons, and the Assistant
Commander for Contracts, Naval Air Systems Command, on Recommendations La,
l.b.(l), l.b.(2)(a), l.b.(2)(e), l.b.(3)(b), l.b.(3)(c), and 2.a-d by December 2,2010. See
the Recommendations Table on page ii of this report.

If possible, send a .pdf file containing your comments to audacm@dodig.mil. Copies
of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9071 (DSN 664-9071).



                               /kv~,~


                                    Bruce A. Burton
                                    Deputy Assistant Inspector General
                                    Acquisition and Contract Management
   Report No. D-2011-014 (Project No. D2009-D000AS-0247.001)                       November 2, 2010 




                  Results in Brief: Weaknesses in Awarding
                  Fees for the Broad Area Maritime
                  Surveillance Contract
                                                             award fee plan to comply with Federal, DOD,
What We Did                                                  and Navy award fee guidance.
This is first in a series of reports on the contract
supporting the Broad Area Maritime Surveillance              Assistant Commander for Contracts, Naval Air
(BAMS) program. This report addresses award                  Systems Command, instruct the BAMS
fees for the contract. The BAMS contract with                contracting officer to conduct an analysis to
Northrop Grumman has a value of $1.8 billion                 determine whether a cost-plus-award-fee contract
and is in the third year of a seven year contract.           is appropriate for the BAMS program, review the
BAMS program officials did not have the proper               rollover award fee payment, and recoup any
controls in place to assess contractor performance           overpayment.
and provide fair and reasonable award fee
determinations for the contractor.                           Management Comments and
                                                             Our Response
What We Found                                                The Assistant Secretary of the Navy for
BAMS program officials did not:                              Research, Development, and Acquisition
                                                             responded on behalf of the Navy with specific
   •		 create a proper award fee plan, or                    comments for each recommendation provided by
   •		 justify $4.1 million in fees paid and the             the Program Executive Officer, Unmanned
       use of about $1 million in rollover fees.             Aviation and Strike Weapons; and the Assistant
                                                             Commander for Contracts, Naval Air Systems
Further, the BAMS contracting officer did not                Command. Generally, the comments did not
justify the use of a cost-plus-award-fee contract.           satisfy the intent of our recommendations. We
These conditions occurred because the BAMS                   request additional information and comments by
contracting officer did not perform his duties, and          December 2, 2010. See the recommendations
program officials were unaware of                            table on the back of this page.
cost-plus-award-fee contract criteria and did not
follow the award fee plan or applicable award fee                        Figure. BAMS Aircraft
guidance. As a result, the BAMS contracting
officer and fee determining official may have
erroneously paid up to $4.1 million in fees to the
contractor. By improving the award fee process,
BAMS officials can mitigate the risk of
erroneously paying as much as $87.3 million for
future award fees.

What We Recommend
Program Executive Officer, Unmanned Aviation
and Strike Weapons, update and re-issue the


                                                       i


Report No. D-2011-014 (Project No. D2009-D000AS-0247.001)              November 2, 2010



Recommendations Table
         Management               Recommendations             No Additional
                                  Requiring Comment           Comments Required
Program Executive Officer,        1.a, 1.b.(1), 1.b.(2)(a),   1.b.(2)(b), 1.b.(2)(c),
Unmanned Aviation and Strike      1.b.(2)(e), 1.b.(3)(b),     1.b.(2)(d), 1.b.(3)(a),
Weapons                           and 1.b.(3)(c)              and 1.b.(3)(d)
Assistant Commander for           2.a-d
Contracts, Naval Air Systems
Command

Please provide comments by December 2, 2010.




                                       ii


Table of Contents
    

Introduction                                                                    1



        Audit Objectives                                                        1


        Background on Broad Area Maritime Surveillance                          1


        Weaknesses in the Internal Controls of the BAMS Award Fee Process       2



Finding. Improper Management of the Award Fee Process                           3



        No Justification for a Cost-Plus-Award-Fee Contract                     3


        Improper Award Fee Plan                                                 5


        Weaknesses in the Award Fee Process                                    10


        Improper Rollover Award Fee Period                                     11


        Summary                                                                12


        Management Comments on the Finding and Our Response                    12 

        Recommendations, Management Comments, and Our Response                 14


                                                                                  

Appendix. Scope and Methodology                                                24



Mangement Comments

        The Assistant Secretary of the Navy for Research, Development, and 

              Acquisition                                                      25 

Introduction
Audit Objectives
This is the first in a series of reports on the contract supporting the Broad Area Maritime
Surveillance (BAMS) program. Our overall objective for this audit was to determine
whether Naval Air Systems Command officials complied with award fee procedures and
paid appropriate fees to the BAMS contractor. See the appendix for a discussion of our
scope and methodology.

Background on Broad Area Maritime Surveillance
The BAMS unmanned aircraft system is an acquisition category ID program with an
approximate value of $19.1 billion in FY 2008 constant dollars.1 On April 18, 2008, the
Under Secretary of Defense for Acquisition, Technology, and Logistics (USD[AT&L])
approved the BAMS program for entry into the system development and demonstration
phase (Milestone B) of the DOD acquisition process. The BAMS unmanned aircraft
system is scheduled to achieve initial operational capability in FY 2015. The BAMS
program will provide continuous maritime intelligence, surveillance, and reconnaissance
information to joint forces and fleet commanders worldwide. The BAMS program will
also provide DOD with the ability to continually detect, classify, and identify maritime
targets. The BAMS program is administered by the Persistent Maritime Unmanned
Aircraft System Program Office and overseen by the Program Executive Officer for
Unmanned Aviation and Strike Weapons.

On behalf of the BAMS program office, a Naval Air Systems Command contracting
officer awarded a $1.2 billion cost-plus-award-fee (CPAF) type contract,
N00019-08-C-0023, to Northrop Grumman Corp., Integrated Systems, on April 22, 2008.
The contract was for the system development and demonstration of the BAMS unmanned
aircraft system with a low-rate initial production option. Specifically, the contract was
for the design, fabrication, and delivery of two unmanned aircrafts; one forward operating
base; one system integration laboratory; and full mission simulation capability. On
February 17, 2009, the contracting officer modified the contract to increase the cost of the
system development and demonstration, which increased the overall value of the contract
by approximately $627 million. As of March 2010, the contract’s value was $1.8 billion.

According to the Federal Acquisition Regulation (FAR) Subpart 16.4, “Incentive
Contracts,” June 14, 2007, CPAF-type contracts consist of a base award fee amount that
is fixed at inception and a judgmental award fee amount based on the Government’s
evaluation of contractor performance. The BAMS contract provided a 3-percent base
award fee ($32.1 million) and a 7-percent judgmental award fee ($74.9 million) for the


1
 According to DOD Instruction 5000.02, “Operation of the Defense Acquisition System,”
December 8, 2008, an acquisition category ID program has a total research, development, test, and
evaluation cost of $365 million in FY 2000 dollars. Additionally, the Under Secretary of Defense for
Acquisition, Technology, and Logistics is the decision authority.


                                                    1

system development and demonstration phase. For the low-rate initial production option,
there was also a 3-percent base award fee ($7.6 million) and a 7-percent judgmental
award fee ($17.8 million) available. In total, the BAMS contractor could receive up to
$132.4 million in award fees: $39.7 million in base award fees regardless of their
performance and up to $92.7 million2 in judgmental award fees based on the
Government’s evaluation of their performance.

Contract Award Protest
Lockheed Martin Tactical Systems filed a protest with the Government Accountability
Office for the BAMS system development and demonstration contract award on May 5,
2008. The BAMS contracting officer subsequently issued a stop-work order for the
contract on May 6, 2008. However, on August 8, 2008, the Government Accountability
Office denied the protest, and the contracting officer restarted the work on the contract on
August 11, 2008.

Contracting Officers
The BAMS program had three contracting officers, one from June 2007 to June 2008,
which included contract award. The second contracting officer was responsible for the
contract from June 2008 to October 2008, which included the work stoppage. The
current contracting officer began work on the contract in October 2008.

Weaknesses in the Internal Controls of the BAMS Award
Fee Process
DOD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the management and implementation of the BAMS award fee process.
Specifically, the BAMS contracting officer and program officials did not justify the use
of a CPAF-type contract, develop an adequate award fee plan, perform proper contractor
evaluations, or justify the use of a rollover award fee period. Implementing the
recommendations in this report will improve the internal controls over the BAMS award
fee process. We will provide a copy of the report to the senior officials responsible for
internal controls at Naval Air Systems Command.




2
 BAMS program officials paid approximately $4.1 million of the $5.4 million in estimated judgmental
award fees to the contractor for the first, second, and rollover periods. In total, the BAMS contractor could
potentially earn up to $87.3 million in remaining judgmental award fees ($92.7 million in judgmental
award fees less the $5.4 million available for the first, second, and rollover periods).


                                                      2

Finding. Improper Management of the Award
Fee Process
The BAMS program officials did not:

    •		 follow Federal, DOD, or Navy criteria when creating an award fee plan to 

        administer more than $92.7 million3 in judgmental award fees; 
 

    •		 implement timely award fee evaluation criteria changes or have documentation to
        substantiate about $4.1 million in award fee review board determinations; or
    •		 justify the use of an award fee rollover period4 to pay the contractor 
 

        approximately $1 million in rollover award fees. 
 


Further, the BAMS contracting officer did not conduct a cost-benefit analysis to justify
that a CPAF-type contract was appropriate for the BAMS program. These conditions
occurred because BAMS contracting officer did not fulfill his duties, and program
officials were unaware of CPAF contract criteria and did not follow the award fee plan or
applicable award fee guidance. As a result, the BAMS contracting officer and fee
determining official (FDO)5 may have erroneously paid up to $4.1 million in judgmental
award fees with another $87.3 million in judgmental award fees at risk.

No Justification for a Cost-Plus-Award-Fee Contract
The BAMS contracting officer did not conduct a cost-benefit analysis to support that the
added administrative costs required to monitor and evaluate contractor performance were
justified by the expected benefits of the BAMS contract. Therefore, we question the
BAMS program officials’ use of a CPAF-type contract for the BAMS system
development and demonstration contract. Without a cost-benefit analysis, we cannot
know whether the expected benefits warranted the additional administrative burden; a
different type of contract may have been more appropriate. The BAMS contracting
officer stated that there was no requirement to create a written determination for the use
of a CPAF-type contract at the time of the BAMS contract award. However, before the
BAMS contract award date of April 22, 2008, Federal and DOD guidance existed that
required justification for using a CPAF-type contract. FAR Subpart 16.4, “Incentive
Contracts,” June 14, 2007, states that a CPAF-type contract is an incentive contract that
provides motivation for excellence. FAR subpart 16.4 also states that a CPAF-type
contract must not be awarded unless the contract amount, performance period, and
expected benefits are sufficient to warrant the additional administrative effort required.
The Department of Navy, “Navy/Marine Corps Award Fee Guide,” July 2004, (Navy


3
  The total award fees available is $132.4 million ($92.7 million in judgmental award fees and 
 

$39.7 million in nondiscretionary base award fees). 

4
  The Navy Award Fee Guide defines rollover as the process of moving unearned available award fees from
 

one evaluation period to a subsequent evaluation period, thus allowing the contractor an additional 
 

opportunity to receive the previously unearned award fee. 

5
  The BAMS FDO is also the BAMS program manager.
 



                                                   3

Award Fee Guide) states that the contracting officer should justify the use of a
CPAF-type contract and make a determination. The determination should be included in
the official contracting file and state whether the additional administrative efforts
required to monitor and evaluate the contractor’s performance is less than the expected
benefit of using a CPAF-type contract.

Office of Management and Budget, Office of Federal Procurement and Policy
memorandum, “Appropriate Use of Incentive Contracts,” December 4, 2007, (2007 OMB
memorandum) states that contracting officers should conduct a written risk and
cost-benefit analysis before using an incentive-fee contract. The 2007 OMB
memorandum further requires the cost-benefit analysis to be approved at a level above
the contracting officer.

The contracting officer provided an April 18, 2008 USD(AT&L) memorandum that
approved the use of a cost-type contract for the BAMS development contract; however,
the memorandum did not require a specific type of cost contract such as a CPAF. The
FAR provides for several cost-type contracts such as cost-plus-fixed-fee, cost-plus­
incentive-fee, cost-sharing, and CPAF. The BAMS acquisition strategy, January 25,
2007, stated only that program officials intended to use a cost contract for the BAMS
system development and demonstration contract. The acquisition strategy did not include
any justification or further explanation of the program officials’ rationale or
determination. Although the USD(AT&L) approved the BAMS program officials’ plan
to use a CPAF contract, neither his approval memorandum nor the acquisition strategy
provided a cost-benefit analysis or justification showing that the added administrative
burdens of a CPAF-type contract were less than the expected benefit. Since there is no
justification, we question the BAMS program officials use of a CPAF-type contract for
the BAMS system development and demonstration.

Additionally, the USD(AT&L) BAMS approval memorandum did not exempt the BAMS
contracting officer from the FAR requirements for CPAF-type contracts or provide a
                                waiver. Since the contract award, the BAMS program
       BAMS program             officials did not provide the administrative support
       officials had no         required to monitor and evaluate contractor performance
      assurance that a          for judgmental award fees.6 This oversight was
    CPAF-type contract          essential because the performance monitor personnel’s
                                input provided the foundation for judgmental award fee
      was appropriate.          determinations. BAMS program officials had no
                                assurance that a CPAF-type contract was appropriate.
The BAMS contracting officer should conduct a cost-benefit analysis to determine
whether the administrative burden outweighs the advantages of this type of contract.
Table 1 shows the available award fees and the payments made by period and amount.




6
 The administration and contract management for the BAMS system development and demonstration
contract will be addressed in another report on the BAMS program.


                                                4

              Table 1. BAMS Award Fee Available and Earned by Period
Award Fee Period Fiscal Year            Award Fee Available       Award Fee Earned
          1              2008-2009        $ 2,279,332                  $ 891,763
                                                        1
       Rollover          2009-2010            1,040,677                 1,040,677
          2                 2009              3,156,787                 2,185,602
          3                 2010              8,301,232
          4                 2011             10,205,629
          5                 2012             12,553,621
          6                 2013             12,497,131
          7                 2014             13,234,833
          8                 2015             12,720,145
           2
          9                 2014              8,876,783
            2
         10                 2015              8,876,783
             Subtotal                     $ 92,702,2753                $4,118,042
                                                        4                    5
       Base fee          2008-2015           39,729,548
                Total                     $132,431,823                 $4,118,042
1
  The rollover award fee was not added to the award fee available total because it was
included in the unearned award fee from the first award fee period.
2
  These are option periods.
3
  The total available judgmental award fee remaining is $87,266,156, which is the
total award fee available for the remaining seven periods (periods three through ten).
4
  The base award fee is the nondiscretionary portion of the BAMS award fee.
5
  We were unable to determine the amount of the base award fee that the contractor
has earned.

Improper Award Fee Plan
Although the BAMS award fee review board modified the award fee plan twice, the plan
still did not comply with Federal, DOD, or Navy requirements. Specifically, the plan did
not include clear evaluation criteria or provide the contractors timely feedback on their
performance. Additionally, the BAMS program officials should not have included
performance monitor personnel on the award fee review board and did not prohibit
contractor personnel from serving on the award fee review board.

Unclear Evaluation Criteria
According to BAMS program officials, they used subjective award fee evaluation criteria
to evaluate the contractor’s performance. The Navy Award Fee Guide states that the
award fee plan should use objective award fee criteria to the maximum extent possible to
support the evaluation of the contractor’s performance. An April 24, 2007, USD(AT&L)
memorandum, “Proper Use of Award Fee Contracts and Award Fee Provisions,”
(2007 USD[AT&L] memorandum) states that it is DOD’s policy that objective award fee



                                            5


criteria be used to measure contract performance, whenever possible. The 2007
USD(AT&L) memorandum also states that if objective criteria do not exist and it is still
appropriate to use a CPAF-type contract, then the head of contracting must sign a
determination and finding approving a CPAF contract. However, BAMS program
officials did not obtain approval to use subjective award fee evaluation criteria from their
head of contracting.

The award fee plan’s evaluation criteria were unclear on how the contractor can perform
“mostly above” contract standards and did not explicitly state how the contractor can
achieve each rating. The award fee plan provided only broad, generic descriptions that
made it impossible to develop anything other than subjective ratings. For example, the
range for “very good” performance is from 50 to 89 percent, which is a wide range with
no differentiation in contractor performance. The use of a rating factor such as “very
good” with a generic description of performance does not establish an appropriate
framework for determining meaningful ratings. It seems implausible that a contractor
could receive only 50 percent of the award fee pool and yet still be considered to be
doing a very good job. Table 2 shows the award fee projections using the remaining
judgmental award fee available, $87.3 million. For example, the BAMS contractor is
able to earn between $43.6 million and $77.7 million for “very good” work. This is a
range of $34.0 million for performance within the same rating category. The wide range
of fees (50 to 89 percent) that could be awarded for the “very good” category illustrates
the need for specific, differentiating evaluation criteria and metrics to justify award
amounts.
                              Table 2. Award Fee Projections
     Rating                Award Fee           Potential Dollar      Range of Available
                       Percentage Range              Value          Earnings for Rating
   Excellent                 100                   $87,266,156        $ 8,726,616
                               90                   78,539,540
  Very Good                    89                   77,666,879          34,033,801
                               50                   43,633,078
  Satisfactory                 49                   42,760,416          41,887,754
                                1                     872,662
Unsatisfactory                  0                           0               NA

The 2007 USD(AT&L) memorandum provides the award fee rating scale. This
memorandum states that a rating of “good” will earn 50 to 75 percent of the award fee
pool, a rating of “excellent” will earn 75 to 90 percent of the award fee pool, and
“outstanding” will earn 90 to 100 percent of the award fee pool. The BAMS award fee
plan only includes two ratings above satisfactory, whereas the 2007 USD(AT&L)
memorandum includes three ratings. Therefore, the BAMS program officials should
adjust the judgmental award fee ranges and implement the 2007 USD(AT&L)
memorandum.




                                             6


 According to the 2007 OMB memorandum, award fee evaluation plans should clearly
 distinguish between satisfactory and excellent performance. The 2007 OMB
 memorandum also requires that the award fee plan clearly describe what a contractor
 needs to do to be considered successful. Although the BAMS award fee plans provided
 grading criteria, it was difficult to determine the extent to which the contractor must
 perform to earn each rating. Table 3 includes the award fee plan grading criteria.

                      Table 3. Award Fee Plan Grading Criteria
   Rating        Award Fee                    Award Fee Plan Description
                  Percent
  Excellent       90-100       Contractor’s performance of virtually all contract
                               requirements is consistently noteworthy and provides
                               numerous significant, tangible or intangible, benefits to
                               the Government. Although some areas may require
                               improvement, these areas are minor and are more than
                               offset by better performance in other areas. The few areas
                               for improvement are all minor. There are no recurring
                               problems. Contractor’s management initiates effective
                               corrective action whenever needed. In virtually all cases,
                               contractor demonstrated reasonable and cooperative
                               behavior with respect to total program management. Cost
                               performance index (CPI), schedule performance index
                               (SPI) >1.0
 Very Good         50-89       Contractor’s performance of most contract requirements is
                               consistently above standards and provides significant
                               tangible and intangible benefits to the Government. The
                               few areas for improvement are all minor. Few, if any,
                               recurring problems have been noted, and contractor takes
                               satisfactory corrective action. In most cases, contractor
                               demonstrated reasonable and cooperative behavior with
                               respect to total program management. 1.0 2CPI,
                               SPI>0.98.
 Satisfactory       1-49       Contractor’s performance of most contract requirements is
                               adequate with some tangible benefits to the Government
                               due to contractor’s effort or initiative. Although there are
                               areas of good or better performance, these are more or less
                               offset by lower-rated performance in other areas. 0.98
                               2CPI, SPI 20.95
Unsatisfactory        0        Contractor’s performance of most contract requirements is
                               inadequate and inconsistent. Quality, responsiveness, and
                               timeliness require attention and action. Corrective actions
                               have not been taken or are ineffective. Contractor failed
                               to demonstrate reasonable and cooperative behavior with
                               respect to total program management. Unsatisfactory
                               performance shall not earn an award fee. CPI, SPI <0.95.


                                             7


During the first award fee period, the contractor delivered contract data requirement lists
on time 91 percent of the time. The grading criteria stated that contract data requirements
lists and program Government data requirements were delivered in compliance with the
contract. For this period, the contractor earned a “satisfactory” rating. The award fee
grading criteria were unclear because the award fee plan did not provide metrics for
acceptable levels of delivering contract data requirement lists on time.

Clear, objective grading criteria are needed to determine exactly what the contractor
needs to do to earn each rating. The BAMS contracting officer and program officials
should develop clear and objective award fee criteria to clarify their expectations of the
contractor. If objective criteria do not exist, then officials should justify the use of
subjective award fee grading criteria as required by the 2007 USD(AT&L) memorandum.

Failed to Provide Timely Feedback
BAMS program officials did not provide the contractors timely feedback on their
performance. The Navy Award Fee Guide states that when an award fee evaluation
period exceeds 6 months, officials should consider an interim evaluation to maintain
effective communication with the contractor. The guide also states that a written interim
evaluation provides the contractor with areas where corrective action can be taken before
the award fee determination.

For example, BAMS program officials did not issue an interim evaluation of the
                                          contractor’s performance for the first period,
         They [BAMS program               which lasted about 11 months.7 For the
    officials] provided the interim second period, they provided the interim
     assessment 8 days before the         assessment 8 days before the end of the
            end of the period.            period. This did not provide the contractor
                                          enough time to fix deficiencies in contract
performance. BAMS program officials should update the award fee plan and include
definitive timeframes when the assessment will be provided in accordance with the Navy
Award Fee Guide.

Additionally, the BAMS contracting officer and the FDO did not provide evaluations of
the first and second award fee periods in a timely manner. The BAMS award fee plan
required that the contracting officer provide the FDO letter within 75 days of the end of
the award fee period. The Navy Award Fee Guide requires that the contracting officer
send the FDO letter with the results of the award fee period evaluation to the contractor
within 45 days of the end of the period. However, the BAMS contracting officer did not
meet either criteria and issued the FDO letters to the contractor 90 days and 77 days after
the end of the first and second award fee periods, respectively.




7
 Due to the contract award protest and stop-work order, the contractor did not perform work from May 6,
2008 to August 11, 2008 .


                                                   8

The BAMS contracting officer and the FDO should provide the contractor with the
evaluations for each period in accordance with the updated award fee plan and the Navy
Award Fee Guide. This should facilitate performance oversight for the evaluation period
because the Government would have provided guidance on the contractor’s performance
and identified areas for improvement before the end of the period.

Prohibited Members on the Award Fee Review Board
BAMS program officials incorrectly included performance monitor and contractor
personnel on the award fee review board. Performance monitor personnel provide daily
evaluation of the contractor's performance in specifically assigned areas of responsibility
and should maintain written records of contractor performance. These written records are
critical to the award fee review board in assessing the contractors overall performance.
Contractor personnel should not be present during discussions or during presentations
made by performance monitor personnel.

Performance Monitor Personnel Improperly Participated on the Award
Fee Review Board
The Navy Award Fee Guide states that performance monitor personnel should not be
members of the award fee review board. The Navy Award Fee Guide further states that it
is critical that the award fee review board evaluate the contractor’s overall performance.
During the December 7, 2009, award fee review board meeting, we found that six of the
eight performance monitor personnel participated in the board’s discussions and voted on
the contractor’s rating for the second period. Consequently, the award fee review board
may have had voting members that were aware of only their own respective areas and not
the contractor’s overall performance. This process potentially jeopardized the validity of
awarding about $2.2 million in judgmental award fees for the second period.

Having the performance monitor personnel vote was not in compliance with the Navy
Award Fee Guide. It also may have caused a potential conflict of interest and separation
of duties issues because performance monitor personnel might not consider the entire
program. BAMS program officials should establish an award fee review board that
complies with the Navy Award Fee Guide and does not include performance monitor
personnel. Further, the award fee review board chairperson should prohibit performance
monitor personnel from being present during rating and judgmental award fee
determination discussions.

Contractor Personnel Erroneously Included on the Award Fee Review
Board
The award fee review board should consist only of Government personnel. Contractor
personnel should not be present during discussions or during presentations made by
performance monitor personnel. However, the BAMS program officials included a
support contractor on the award fee review board who was also present during the
judgmental award fee determination and performance discussions. The contractor was
part of the support staff for the BAMS Program Office and functioned as the recorder for
the board.



                                            9

A BAMS program official stated that the support contractor was being hired by the
program office as a Government employee. Nonetheless, both the Navy Award Fee
Guide and the BAMS award fee plan clearly state that no contractor personnel are
allowed to attend or participate in the award fee review board. BAMS program officials
should prohibit contractor personnel from attending or participating in the award fee
review board.

Weaknesses in the Award Fee Process
The BAMS contracting officer and program officials made untimely changes to award
fee performance criteria and did not require performance monitor personnel to document
their evaluation of contractor performance. Because of this, the BAMS award fee review
board did not have the proper controls to assess contractor performance and provide a fair
award fee determination for approximately $4.1 million8 in judgmental award fees that
they have awarded to the contractor or the remaining $87.3 million in potential
judgmental award fees.

Award Fee Criteria Changed After the Period Ended
BAMS program officials did not properly implement changes in award fee criteria.
According to the BAMS award fee plan, changes to the award fee criteria must be made
30 days prior to the start of the evaluation period or by mutual agreement between the
Government and the contractor during the period. Additionally, the Navy Award Fee
Guide provides a sample award fee plan, which specifically states that if the contracting
officer does not issue award fee criteria for a new period, then the old award fee criteria
applies.

BAMS program officials changed the first period award fee criteria approximately
6 months after the award fee evaluation period ended. A BAMS program official stated
that this occurred because of the stop-work order issued by the BAMS contracting
officer. The official further stated that the first award fee period was from April 22,
2008, to September 30, 2008; however, BAMS program officials and the contractor were
in award fee negotiations until 6 months after the period ended because they were unable
to agree on the contractor performance criteria for the new periods.

As a result, BAMS program officials evaluated the contractor on criteria that were not on
the contract until after the award fee period ended. The contractor may not have received
a proper judgmental award fee determination because the performance criteria was not
established until after the end of the award fee period. BAMS award fee review board
officials should issue new award fee performance criteria, and any changes to the criteria
should be in accordance with the updated award fee plan so that the contractor is aware of
the award fee criteria before the start of the performance period.




8
 The contractor earned $4.1 million of a possible $5.4 million in judgmental award fees for the first,
second, and rollover periods.


                                                     10

Contractor Performance Not Documented
The BAMS FDO and award fee review board did not properly document that they
monitored the contractor’s performance. None of the eight BAMS performance monitor
personnel maintained their own records of contractor performance. In fact, the BAMS
FDO and the award fee review board sometimes relied on the contractor to assess its own
work.

The BAMS award fee plan followed the Navy Award Fee Guide by requiring that
performance monitor personnel maintain written records of the contractor’s performance
                                              for their assigned evaluation areas. The
         None of the eight BAMS               plan further required that performance
     performance monitor personnel monitor personnel detail specific examples
    maintained their own records of of where improvements were necessary or
                                              had occurred, and when performance was
         contractor performance.              below, at, or exceeded contractual
                                              requirements. However, none of the
performance monitor personnel could provide written evidence of surveillance. When
asked about their records, one performance monitor stated that he did not have written
records of contractor performance, and another performance monitor explained that he
relied on contractor-created documents to evaluate the contractor’s performance. The
performance monitor further stated that he reviewed contractor performance reports and
the master schedule to assess contractor performance. Both of these documents were
contractor-created deliverables. The performance monitor did not keep individual written
determinations of contractor performance to verify the accuracy of the contractor
deliverables and document contractor performance.

According to the BAMS award fee plan and the Navy Award Fee Guide, performance
monitor personnel were required to document the contractor evaluations for each
evaluation period to provide transparency and facilitate a sound award fee process.
Because the performance monitor personnel did not document their evaluations, the
BAMS FDO and the award fee review board paid approximately $4.1 million in
judgmental award fees to the contractor without evidence to support their decision.
BAMS program officials should hold the performance monitor personnel accountable for
keeping written records of contractor performance. Program officials should also require
the performance monitor personnel to document the contractor’s lack of performance if
they fail to comply with requirements.

Improper Rollover Award Fee Period
BAMS program officials and the BAMS contracting officer did not comply with rollover
award fee criteria. The BAMS FDO improperly awarded the contractor more than
$1 million in rollover award fees and did not justify the use of the rollover fees on the
BAMS contract.




                                           11


No Justification of Rollover Period
No BAMS program official approved the rollover award fee period. The Navy Award
Fee Guide defines “rollover” as the process of moving available unearned judgmental
award fees from one evaluation period to a subsequent evaluation period, thereby
allowing the contractor an additional opportunity to receive previously unearned
judgmental award fee. According to a March 29, 2006, USD(AT&L) memorandum,
“Award Fee Contracts (FAR 16, DFARS 215, DFARS 216),” (2006 USD[AT&L]
memorandum), if the FDO approves the use of a rollover award fee, the official contract
file must contain documentation on why the use of this fee is appropriate, and the
contracting officer must inform the contractor. The 2006 USD(AT&L) memorandum
also requires that if officials plan to use a rollover award fee, they must document the use
of a rollover fee in the program acquisition strategy. However, BAMS program officials
did not include in the acquisition strategy that they intended to use a rollover award fee or
justify the rationale as to why the rollover was appropriate.

Improperly Awarded $1 million in Rollover Award Fees
The BAMS contracting officer and the FDO improperly awarded the fees for the rollover
period. According to the 2006 USD(AT&L) memorandum, the contractor may earn only
a portion of the fee that was unearned in a previous award fee period, even if the
contractor’s performance was excellent. The BAMS contractor earned 100 percent of the
available award fee in contradiction to the 2006 USD(AT&L) memorandum. The FDO
improperly awarded the contractor the entire rollover award fee amount of $1,040,677.
The BAMS contracting officer should review the rollover fee payment to determine what
an appropriate fee should have been and recoup any overpayment to the contractor for the
rollover period.

Summary
The BAMS contracting officer did not justify the use of a CPAF-type contract for the
BAMS system development and demonstration contract. Additionally, BAMS program
officials did not create a proper award fee plan in accordance with Federal, DOD, and
Navy policies nor did they follow the BAMS contract award fee plan. BAMS program
officials also did not justify the use of approximately $1 million in rollover award fees.
As a result, BAMS program officials did not have the proper foundation to assess
contractor performance to award $4.1 million in fair judgmental award fees to the
contractor, or the remaining $87.3 million in potential judgmental award fees.

Management Comments on the Finding and Our
Response
The Assistant Secretary of the Navy for Research, Development, and Acquisition
responded on behalf of the Navy with specific comments for each recommendation
provided by the Program Executive Officer, Unmanned Aviation and Strike Weapons
(Program Executive Officer); and the Assistant Commander for Contracts, Naval Air
Systems Command (Assistant Commander for Contracts).




                                             12


Program Executive Officer and the Assistant Commander for
Contracts Comments on the Finding
Though not required to comment on the narrative of the finding, the Program Executive
Officer and the Assistant Commander for Contracts partially agreed with sections of the
report. Navy officials stated that BAMS program officials and Navy Air Systems
Command legal officials used the Navy Award Fee Guide as an overarching guide in
establishing the BAMS award fee plan. Navy officials disagreed with the report sections
that discussed the contractor serving on the award fee review board and the performance
monitors not documenting contractor performance or maintaining independent records.
However, they agreed to exclude performance monitors as voting members of the award
fee review board.

Additionally, the Program Executive Officer and the Assistant Commander for Contracts
partially agreed with the internal controls section of the report. They stated that the
appropriate justification existed for a BAMS cost-plus-award-fee contract and that the
award fee plan was adequate. However, Navy officials stated that the BAMS contracting
officer and award fee review board will modify the BAMS award fee plan to address
timeliness of assessments and associated contract modifications. Navy officials also
stated that they will review and approve the justification for the use of future rollover
award fee periods in the BAMS contracting file.

Our Response
Navy officials did not always follow the Navy Award Fee Guide when creating the
BAMS award fee plan. For example, the BAMS award fee plan did not provide objective
evaluation criteria or clear rating criteria, did not require timely feedback, and included
prohibited members on the award fee review board.

BAMS program officials did not always comply with the BAMS award fee plan.
According to the BAMS award fee plan, the board should be composed of only
Government personnel, regardless of their role, and should not include prime contractor
personnel. The plan also required that performance monitors maintain written records
that detail specific examples of contractor performance. However, during the audit,
BAMS program officials allowed an office support staff contractor to serve on the award
fee review board, and none of the eight performance monitors maintained written records
of the contractor’s performance.

Navy officials could not provide a cost-benefit analysis for the BAMS contract
supporting the use of a cost-plus-award-fee contract as required by the 2007 OMB
memorandum and FAR part 16.4. According to the 2007 OMB memorandum,
contracting officers should conduct a written risk and cost-benefit analysis before using
an incentive-fee contract, which should be approved at a level above the contracting
officer. FAR part 16.4 also requires that the contracting officer justify the use of a cost­
plus-award-fee contract to demonstrate that the additional administrative costs of
evaluations outweigh the expected benefits.




                                             13


Recommendations, Management Comments, and Our
Response
The Assistant Secretary of the Navy for Research, Development, and Acquisition,
responded on behalf of the Navy with specific comments for each recommendation
provided by the Program Executive Officer and the Assistant Commander for Contracts.

Renumbered Recommendations
To clarify the intent of our recommendations we moved draft Recommendations
1.b.(2)(c), 1.b.(2)(d), 1.b.(2)(f), and 1.b.2(g) under recommendation 1.b.3. Specifically,
we renumbered draft report Recommendation 1.b.(2)(c) to final report Recommendation
1.b.(3)(b), draft report Recommendation 1.b.(2)(d) to final report Recommendation
1.b.(3)(c), draft report Recommendation 1.b.(2)(f) to final report Recommendation
1.b.(3)(a), draft report Recommendation 1.b.(2)(g) to final report Recommendation
1.b.(3)(d), draft report Recommendation 1.b.(2)(h) to final report Recommendation
1.b.(2)(c), and draft report Recommendation 1.b.(2)(i) to final report Recommendation
1.b.(2)(d).

1. We recommend that the Program Executive Officer, Unmanned Aviation and
Strike Weapons, require that the:

      a. Broad Area Maritime Surveillance program officials establish objective
award fee performance criteria as required by the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics memorandum, “Proper Use of
Award Fee Contracts and Award Fee Provisions,” April 24, 2007.

Program Executive Officer Comments
The Program Executive Officer disagreed. He stated that the April 2007 USD(AT&L)
memorandum did not apply to the BAMS solicitation because it was issued February 15,
2007, and the effective date of the memorandum was for solicitations issued after
August 1, 2007.

Additionally, the Program Executive Officer stated that BAMS program officials created
four performance evaluation criteria: cost, technical, schedule, and management. He
explained that these evaluation factors are “objective like” and will incentivize and
motivate the contractor to perform beyond the minimum contract requirements
throughout the system design and development phase. He stated that the criteria were
also weighted in accordance with critical program milestones as well as program
outcome, phase, and risk. Lastly, the Program Executive Officer stated that Naval Air
Systems Command officials approved the BAMS contract incentive strategy.

Our Response
The Program Executive Officer’s comments are not responsive. Although the BAMS
contracting officer issued the initial solicitation on February 15, 2007, the contracting
officer modified the solicitation seven times after August 1, 2007, and issued the final
amendment to the solicitation on January 16, 2008 (amendment 17). Therefore, BAMS


                                            14


program officials had about 6 months after the effective date of the April 2007
USD(AT&L) memorandum to incorporate the requirements and establish objective
criteria into the award fee plan. Furthermore, a BAMS program management official
provided us with the April 2007 USD(AT&L) memorandum and stated that it was criteria
that the BAMS program followed and implemented into the award fee plan.

In addition, the BAMS award fee plan used subjective criteria. The Program Executive
Officer stated that the BAMS award fee plan had “objective like” criteria, but did not
explain how the criteria was “objective like.” For example, the Program Executive
Officer did not define the vague evaluation criteria that BAMS program officials would
use to measure the contractor’s performance. Without clear and defined objective
evaluation criteria, assessing the contractor’s performance becomes open for subjective
interpretation. BAMS program officials should implement the requirements of the
April 2007 USD(AT&L) memorandum as a good business practice and to assist in
improving the way DOD does business, even though they did not follow the
memorandum when creating the BAMS award fee plan.

The Program Executive Officer’s comments on the applicability of the April 2007
USD(AT&L) memorandum contradicts information that was provided to us by a BAMS
program official. Therefore, we request that the Program Executive Officer reconsider
his position and provide revised comments for the final report.

      b. Broad Area Maritime Surveillance fee determining official establish an
award fee review board that complies with the Department of Navy, “Navy/Marine
Corps Award Fee Guide,” July 2004. The Broad Area Maritime Surveillance fee
determining official and the award fee review board members should:

              (1) Develop clear and objective grading criteria to clarify their
expectations and incentivize the contractor by explaining to what extent the
contractor needs to perform to earn each rating in the award fee plan.

Program Executive Officer Comments
The Program Executive Officer disagreed. He stated that the BAMS award fee plan
provides award fee grade definitions and evaluation criteria based on objectives
associated with the effective application of the performance measurement baseline and
major program events in each award fee evaluation period. The Program Executive
Officer also stated that the BAMS award fee plan considers subjective criteria and
objective evaluation criteria such as the cost performance and schedule performance
indices. Additionally, he noted that the BAMS award fee plan includes four criteria for
evaluation (cost, technical, schedule, and performance) and that each contain two to three
quantitative and qualitative measurements.

Our Response
The Program Executive Officer’s comments are not responsive. Specifically, the Program
Executive Officer’s response did not state how the evaluation criteria were objective or
provide specific metrics. He stated only that the performance evaluation criteria were


                                            15


“objective like.” The evaluation criteria specified in the BAMS award fee plan were
mostly subjective. For example, under the cost evaluation criteria, one of the objectives
was to evaluate the “degree to which program funds and resources were used to provide
the maximum benefit for the program.” The BAMS FDO stated during the audit that
determining the “maximum benefit” is vague and subjective. Without defining vague
terms in the BAMS award fee plan such as “maximum benefit,” “consistently above
standards,” or “adequate,” the award fee evaluation board will not be able to consistently
apply the award fee evaluation criteria when assessing the contractor’s performance.

Additionally, while the BAMS award fee plan included two to three quantitative and
qualitative measurements for each rating criteria, the quantitative measurements were the
cost and schedule performance indices that the BAMS FDO stated that he did not fully
rely on because “the contractor can game the numbers,” and the qualitative measurements
included vague terms such as “adequate” and “maximum benefit” that are not defined.
Therefore, we request that the Program Executive Officer reconsider his position and
provide revised comments to the final report.

                (2) Revise and reissue the Broad Area Maritime Surveillance award
 fee plan to:

                     (a) Include acceptable timeframes for providing the results of
the interim award fee evaluation to the contractor in accordance with the
Department of the Navy, “Navy/Marine Corps Award Fee Guide,” July 2004.

Program Executive Officer Comments
The Program Executive Officer disagreed. He stated that the BAMS award fee plan
provides interim award fee evaluation criteria and the timeframe that the BAMS award
fee review board is required to comment on the interim evaluation period. He also stated
that BAMS program officials provide the contractor evaluation criteria at the start of a
new evaluation period, which are in effect for the entire award fee period. Additionally,
the Program Executive Officer explained that the Navy Award Fee Guide does not
provide specific timeframes for providing contractors the results of the interim award fee
evaluation. However, he said that BAMS program officials try to provide the contractor
the results of the interim award fee assessment 30 days after the end of the interim award
fee period.

Our Response
The Program Executive Officer’s comments are not responsive. Although the BAMS
award fee plan provided criteria for the interim award fee period, the plan did not include
a timeframe in which BAMS program officials will provide interim feedback to the
contractor. Additionally, the Program Executive Officer did not state whether he will
amend the BAMS award fee evaluation plan to include a timeframe to provide the BAMS
contractor interim award fee evaluation results.




                                            16


According to the Navy Award Fee Guide, a written interim evaluation provides the
contractor with areas where corrective action can be taken before the award fee
determination.

Establishing a timeframe to provide interim award fee evaluation feedback to the
contractor provides:
   •		 increased transparency for all award fee participants,
   •		 incentives for the contractors to take corrective actions to improve their 
 

        performance, and 
 

   •		 effective communication.
Therefore, we request that the Program Executive Officer reconsider his position and
provided revised comments to the final report.

                     (b) Provide the contractor more timely feedback at the end of
the award fee evaluation period in accordance with the Department of the Navy,
“Navy/Marine Corps Award Fee Guide,” July 2004.

Program Executive Officer Comments
The Program Executive Officer agreed. He stated that BAMS program officials
will modify the award fee plan to provide the BAMS contractor the overall grade and
award fee payment within 45 days of the completion of each award fee evaluation period.

Our Response
The Program Executive Officer’s comments are responsive. The Program Executive
Officer’s comments indicated that he will take appropriate actions. While no additional
comments are required, we request that the Program Executive Officer provide the
modified BAMS award fee plan and a copy of the contract modification that includes the
evaluation for the fourth BAMS award fee period to our office.

                     (c) Prohibit performance monitor personnel from being
present during the award fee review board rating and fee determination discussions.

Program Executive Officer Comments
The Program Executive Officer agreed. He stated that the BAMS award fee plan will be
updated to exclude performance monitors from being present during award fee review
board rating and fee determination discussions.

Our Response
The Program Executive Officer’s comments are responsive, and no further comments are
required.

                    (d) Exclude performance monitor personnel from being award
fee review board members.




                                             17


Program Executive Officer Comments
The Program Executive Officer agreed. He stated that the BAMS award fee plan will be
updated to exclude performance monitors from the award fee review board.

Our Response
The Program Executive Officers’ comments are responsive, and no further comments are
required.

                     (e) Provide the contractor an interim award fee evaluation for
every award fee period longer than 6 months in accordance with the Broad Area
Maritime Surveillance award fee plan.

Program Executive Officer Comments
The Program Executive Officer stated that he partially agreed, but his response did not
indicate what he actually agreed with. Specifically, the Program Executive Officer stated
that BAMS program officials were late in providing interim award fee evaluations for the
first award fee period, and that BAMS program officials did not plan for award fee
periods of longer than 12 months. He explained that due to the contract award protest,
the interim award fee evaluations for the first two periods took longer than 6 months.
The Program Executive Officer said this contributed to BAMS program officials not
providing interim award fee evaluations in a timely manner.

Our Response
Although the Program Executive Officer explained the reasons that BAMS program
officials were late in providing the interim award fee evaluation for the first award fee
period, he did not state whether he will change the BAMS award fee plan. We request
that the Program Executive Officer require the BAMS award fee review board to provide
the contractor an interim award fee evaluation for every award fee period longer than
6 months as suggested by the Navy Award Fee Guide. Providing interim feedback to the
BAMS contractor will incentivize the contractor to take corrective actions to improve its
performance and increase effective communication. Therefore, we request that the
Program Executive Officer provide comments in response to the final report stating
whether he will change the BAMS award fee plan and require interim feedback for any
evaluation period that exceeds 6 months.

              (3) Comply with the Broad Area Maritime Surveillance award fee
plan:

                      (a) When making award fee evaluation determinations.

Program Executive Officer Comments
The Program Executive Officer agreed. He stated that BAMS program officials will
comply with the revised award fee plan.




                                           18


Our Response
The Program Executive Officer’s comments are responsive, and no further comments are
required.

                     (b) Prohibit all contractor personnel from being members of
the award fee review board and participating in the award fee determination
process.

Program Executive Officer Comments
The Program Executive Officer partially agreed. He stated that the intent of the Navy
Award Fee Guide was to prohibit prime contractors from participating in their own award
fee review board. He also stated that the BAMS award fee plan states that the award fee
review board should not include prime contractor personnel. Additionally, the Program
Executive Officer explained that the BAMS program support contractor served as the
award fee review board recorder and signed a nondisclosure agreement to support the
BAMS program office. The support contractor did not have financial interest in the
outcome of the award fee decision and acted only as a note taker, not a voting member of
the award fee review board. However, he agreed that it would have been preferable to
use a Government employee as the award fee review board recorder, but that the integrity
of the board was never an issue.

Our Response
The Program Executive Officer’s comments are not responsive. Although the Program
Executive Officer agreed that it would have been preferable to use a Government
employee on the award fee review board, he did not state whether he will include only
Government personnel on the award fee review board in the future. Therefore, we
request that the Program Executive Officer provide additional comments in response to
the final report that state whether he will prohibit all contractor personnel from
participating in the BAMS award fee review board.

                      (c) Require all changes in the Broad Area Maritime
Surveillance award fee plan to be provided to the contractor 30 days prior to the
start of the award fee period.

Program Executive Officer Comments
The Program Executive Officer partially agreed. He stated that the BAMS program
incurred a 100 day delay due to a contract award protest. The Program Executive Officer
explained that after the program restarted in August 2008, the BAMS contractor and
program officials negotiated award fee plan changes, and the BAMS contracting officer
subsequently amended the award fee plan on March 26, 2009. He added that the revised
plan changed the award fee evaluation criteria, significant events, award fee allocations,
and end dates for the first and second award fee periods. He also stated that the plan
changes resulted in the first and second periods being shortened to 7 and 6 months long,
respectively. However, the Program Executive Officer agreed that BAMS program
officials were late in providing the contractor feedback for the first evaluation period.


                                           19


Our Response
The Program Executive Officer’s comments are not responsive. The Program Executive
Officer agreed that the BAMS program officials were late in providing the contractor
feedback for the first award fee period. However, he did not state whether the BAMS
program officials will provide all award fee plan changes to the contractor 30 days before
the start of the award fee period as required by the BAMS award fee plan. Therefore, we
request that the Program Executive Officer provide comments in response to the final
report stating whether he will provide all changes to the BAMS award fee plan to the
contractor at least 30 days before the start of the award fee period.

                    (d) Require performance monitor personnel to prepare written
records of contractor performance and hold the performance monitor personnel
accountable for their written documentation.

Program Executive Officer Comments
The Program Executive Officer partially agreed. He stated that the BAMS award fee
plan defines the responsibilities of the members of the award fee review board and
requires the performance monitor to maintain written records of contractor performance.
He also stated that the BAMS program officials provided the members of the award fee
review board and performance monitors training upon nomination to their roles to ensure
that they understand and accept the responsibility of being a member of the award fee
review board. Additionally, the Program Executive Officer explained that some of the
performance monitors compare the information provided by the contractor to data
produced with internal Naval Air Systems Command tools to verify the accuracy of the
contractor deliverables. However, he noted that BAMS program officials will include the
performance monitors’ written documentation in each evaluation period.

Our Response
The Program Executive Officer’s comments are responsive, and no further comments are
required.

2. We recommend that the Assistant Commander for Contracts, Naval Air Systems
Command, instruct the Broad Area Maritime Surveillance contracting officer to:

        a. Conduct a cost-benefit analysis to determine whether a
cost-plus-award-fee contract is appropriate for the Broad Area Maritime
Surveillance program and include the analysis with the determination in the
contract file.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts disagreed. She stated that the BAMS
contracting officer conducted the appropriate analysis and justified using a cost-plus­
award-fee contract. The Assistant Commander for Contracts also stated that the BAMS
program officials provided two presentations to the head of contracts, Naval Air Systems




                                           20


Command, and the Program Executive Officer, Unmanned and Strike Weapons, on the
BAMS contract before the contract award.

Additionally, the Assistant Commander for Contracts stated that the BAMS contracting
officer documented the cost-plus-award-fee rational in the business clearance
memorandum, which stated that “any additional administrative effort and cost required to
monitor and evaluate performance is justified by the expected benefits.” She further
stated that the BAMS contractor is currently meeting its contract requirements, but that if
its performance should decline, then BAMS program officials will re-examine the use of
a cost-plus-award-fee contract.

Our Response
The Assistant Commander for Contracts comments are not responsive. Although BAMS
program officials may have briefed their intent to use a cost-plus-award-fee contract, they
did not justify the use of a cost-plus-award-fee contract. FAR part 16.4 states that the
contracting officer must justify that the contract amount, performance period, and
expected benefits of a cost-plus-award-fee contract are sufficient to warrant the additional
administrative effort and costs involved. According to the 2007 OMB memorandum,
contracting officers should conduct a written risk and cost-benefit analysis before using
an incentive-fee contract, which should be approved at a level above the contracting
officer. However, the BAMS contracting officer did not provide a cost-benefit analysis
supporting the statement in the business clearance memorandum. Therefore, BAMS
program officials have no assurance that the benefits of the cost-plus-award-fee contract
outweigh the increased administrative costs of evaluation or that a cost-plus-award-fee
contract is appropriate for the BAMS system development and demonstration contract.
We request that the Assistant Commander for Contracts provide comments in response to
the final report stating whether she will require the contracting officer to perform a cost-
benefit analysis for the BAMS contract as required by the 2007 OMB memorandum and
FAR part 16.4.

       b. Comply with the award fee criteria from the Under Secretary of Defense
for Acquisition, Technology, and Logistics memorandum, “Proper Use of Award
Fee contracts and Award Fee Provisions,” April 24, 2007.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts disagreed. She stated that the BAMS
contracting officer issued the solicitation on February 15, 2007, and at the time, it
conformed to existing award fee criteria. She also stated that the April 2007
USD(AT&L) memorandum was effective for solicitations issued after August 1, 2007,
and therefore; it did not apply to the BAMS contract.

Our Response
The Assistant Commander for Contracts comments are not responsive. The BAMS
contracting officer had approximately 6 months after the effective date of the April 2007
USD(AT&L) memorandum to incorporate the requirements and establish objective
award fee criteria given the numerous amendments to the solicitation after the effective


                                            21


date of the USD(AT&L) memorandum. Additionally, during our site visit, a BAMS
program official provided us the April 2007 USD(AT&L) memorandum and stated that
the BAMS award fee plan complied with the memorandum. However, BAMS program
officials did not comply with the April 2007 USD(AT&L) memorandum even though
they provided the memorandum and stated that they complied with it.

BAMS program officials should incorporate the requirements of the April 2007
USD(AT&L) memorandum into the award fee plan because it will increase the
transparency of the award fee process as well as clarify the award fee evaluation criteria.
Therefore, the Assistant Commander for Contracts should provide comments in response
to the final report stating why she did not comply with the April 2007 USD(AT&L)
memorandum even though the requirements would improve the award fee process and
she had approximately 6 months to implement the memorandum.

      c. Review the rollover award fee payment to determine an appropriate
amount in accordance with the Under Secretary of Defense for Acquisition,
Technology, and Logistics memorandum, “Award Fee Contracts (FAR 16, DFARS
215, DFARS 216),” March 29, 2006.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts partially agreed. She stated that the BAMS
FDO’s actions were in accordance with the March 2006 USD(AT&L) memorandum.
The Assistant Commander for Contracts explained that the FDO complied with the
memorandum because the FDO made only 75 percent ($1,040,677) of the unpaid award
fee available ($1,387,569) for the rollover award fee period. She also stated that by
excluding 25 percent of the unpaid available award fee, the BAMS contracting officer
“put the contractor on notice” that the most it could recover was 75 percent of the total
unearned fee.

Additionally, the Assistant Commander for Contracts stated that she reviewed the BAMS
rollover award fee payment and concluded that the BAMS FDO acted within his
authority. She explained that the contractor received 100 percent of the available rollover
award fee ($1,040,677) by obtaining an “excellent” rating in accordance with the BAMS
award fee plan. The Assistant Commander for Contracts further stated that past BAMS
award fee rollover actions were in accordance with the March 2006 USD(AT&L)
memorandum and that Naval Air Systems Command officials will review the
effectiveness of using future rollover award fees for the BAMS contract.

Our Response
The Assistant Commander for Contracts comments are not responsive. Although the
BAMS contracting officer made only 75 percent of the unpaid award fee from the first
award fee period available to the contractor, the BAMS FDO and contracting officer did
not comply with the March 2006 USD(AT&L) memorandum. The March 2006
USD(AT&L) memorandum states that the contractor may earn only a portion of the
fee that was rolled over, even if contractor performance is excellent. However, the
BAMS FDO awarded the contractor an “excellent” and granted the contractor


                                            22

100 percent of the award fee that was rolled over ($1,040,677). Therefore, the BAMS
FDO and contracting officer did not comply with the March 2006 USD(AT&L)
memorandum because they awarded the BAMS contractor 100 percent of the rollover
award fee available. We request that the Assistant Commander for Contracts review the
BAMS rollover award fee payment to determine an acceptable amount that is less than
100 percent of the available award fee the contractor can receive in accordance with the
March 2006 USD(AT&L) memorandum and provide comments in response to the final
report.

       d. Recoup any overpayment to the contractor for the rollover period based
on the revised determination.

Assistant Commander for Contracts Comments
The Assistant Commander for Contracts disagreed. She stated that the execution of the
rollover award fee period met the intent of the 2006 USD(AT&L) memorandum, and the
BAMS FDO did not overpay the BAMS contractor.

Our Response
The Assistant Commander for Contracts comments are not responsive. The BAMS FDO
and contracting officer did not comply with the March 2006 USD(AT&L) memorandum
because they awarded the entire rollover award fee available to the contractor. According
to the March 2006 USD(AT&L) memorandum, the contractor may only receive a portion
of the award fee that was rolled over even if its performance was excellent. Therefore,
we request that the Assistant Commander for Contracts instruct the BAMS contracting
officer to recoup the overpayment or reduce future award fee payments in order to
comply with the March 2006 USD(AT&L) memorandum and provide comments in
response to the final report.




                                           23


Appendix. Scope and Methodology
We conducted this performance audit from July 2009 through June 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We interviewed BAMS contracting officers and program officials at Patuxent River,
Naval Air Station, Patuxent River, Maryland, as well as Defense Contract Management
Agency officials at Bethpage, New York, who were involved in the BAMS award fee
process. We also attended an award fee review board meeting for the second award fee
evaluation period.

To review the BAMS award fee process, we reviewed the original contracting files,
contract modifications, award fee plans, and the FDO’s letters. We then compared those
documents to the FAR, Defense Federal Acquisition Regulation Supplement, a 2007
Office of Management and Budget memorandum, USD(AT&L) memoranda, and the
Navy/Marine Corps Award Fee Guide to determine whether DOD officials properly
followed the award fee criteria.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DOD
Inspector General (DOD IG) have issued four reports discussing DOD’s use of award fee
contracts. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. 09-630, “Guidance on Award Fees Has Led to Better Practices But Is
Not Consistently Applied,” May 2009

GAO Report No. 07-839, “DOD’s Lack of Adherence to Key Contracting Principles on
Iraq Oil Contract Put Government Interests at Risk,” July 2007

GAO Report No. 06-66, “DOD Has Paid Billions in Award and Incentive Fees
Regardless of Acquisition Outcomes,” December 2005

DOD IG
DOD IG Report No. 2010-049, “U.S. Army Corps of Engineers’ Use of Award Fees on
Contracts in Iraq and Afghanistan,” April 1, 2010



                                          24

Assistant Secretary of the Navy for Research,
Development, and Acquisition Comments

                                                                                               Final Report
                                                                                                Reference



                                 THE ASSISTANT SECRETARY OF THE NAVY
                                     (RESEARCH, DEVELOPMENT AND ACQUlsmON>
                                             1000 NAVY PEmAGON
                                           WASHINGTON DC 2035(>1000

                                                 AUG 1 1 2010

       MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR
                        GENERAL

       SU BJECT: Response to the DoDIG Draft Report " Weaknesses in Awarding Fees for the
                 Broad Area Maritime Surveillance Contract (Project Number 02009-
                 DOOOAS·0247 .00 I)"

        References: (a) DODIG Dran Report "Weaknesses in Awarding Fees for the Broad
                        Area Maritime SurveilJ ance Contract"
                    (b) DoD Directive 5400.7-R, Freedom of Information Act Program

               Attached is my response to DODIG Draft Report "Weaknesses in Awarding Fees
       for the Broad Area Maritime Survei llance Contract" whi ch was forwa rded for review,
       comments and signature. In accordance with Chapter 3, paragraph C3. 2.1.2. 1 of
       reference (b), no Freedom of Information Act               .               . Please
                                Click to add JPEG file
       direct any questions concerning the response to




                                                Sean J. Stackley

        Attachme nt :
        I. Response to Subject Draft Report

        cc:
       General Counsel




                                                             25


                                                                                              Final Report 

                                                                                               Reference



                                 DEPARTMENT OF THE NAVY
                                 PROGRAM EXECUTIVE OFFICER
                          UNMANNED AVIATION AND STRIKE WEAPONS
                              RAOM WILLIAM A MOFFETT BUILDING
                                 47123 BUSE ROAD BLDG 2272
                               PATUXENT RIVER, MD 2(671)..1547

                                                                        7501
                                                                        Ser PEO(U&W)l10-126
                                                                        19Juiy2010

From : I)rogram Ex.ecuti ve Officer. Unmanned Avialion & Strike Weapons (PEO(U&W)
To:    Assistant Secretary of the Navy. Research, Development, and Acquisition (ASN( RDA»

Subj : DODIG DRAFT REPORT ON WEAKNESSES IN AWARDING FEES FOR THE
       BROAD AREA MARITIME SURVEILLANCE CONTRACT (PROJECT NUMBER
       D2009-0000AS-0247 .00 I)

Ref:                                      06124110@ 1255
                          '"1.>'.1_" . Freedom of lnformstion Act Program

End : (I) PEO(U& W)/A IR-2.0 Response 10 Subject Dcaft Repon

I. Reference (a) forwarded subject draft repon for review and comments. Accordingly.
enclosure (1) provides our response.

2. In accordance with Chapler 3, paragraph C3.2.1 .2. 1 of reference (b), no Freedom of
                          Click to add JPEG file
Information ACI (FO rA) markings are required .

J . Please direct questions concerning the response




Copy 10:
AIR-2.0




                                                          26

                                                                                                      Final Report 

                                                                                                       Reference






  Prog ra m Executive Officer, Unma nned Aviation a nd S tr ike Wea pons (PEO(U&W»
                        Na val Air Systems Comma nd (NAVA IR)
                       RESPONSE TO DODIG DRAFT RE PORT
Wea knesses in Awa rding Fees for the Broad Area Maritime Su rveilla nce (RAMS) Contract
             Proj ect Number D2009-DOOOAS -0247.001 , Da ted June 24, 2010


  FINDI NG: Improper Management of the Award Fee Process

  The BAMS program offici als did not:

              •   follow Federal, DO D, or avy criteria when creati ng an award fee plan to
                  administer more than $92.7 million in j udgmental award fees;
              •   impiementl imely award fee evaluation cri teri a changes or have
                  documental ion to substant iate about $4. 1 million in award fee review
                  board determinations; or
              •   justify the use of an award fee rollover period (0 pay (he contractor
                  approx imately $ 1 mill ion in rollover award fees.

  Further, (he BAMS contracti ng officer did not conduct a cost-benefit analys is 10 justify
  that a CPAF-IYpe contract was appropriate for the BAMS program. These conditions
  occurred because BAMS contracting office r did not fu lfi ll his duties, and program
                             Click to add JPEG file
  officials were unaware of CPAF contract cri teria and did not foll ow the award fee plan or
  appl icable award fee guidance. As a resu lt , the BAMS contracting offi cer and fee
  dete rmini ng o ffi cial (FDO) may have erroneous ly paid up to $4. 1 mil lion in judgmental
  i.lward fees with another $87.3 million in judgmenta l award fees at ri sk.

  PEO(U&W) I NA VA IR Response: Part iall y concur. Please see the fo llow ing
  responses to the recommendations below.

  R ECOM MENDATION 1: Program Executive Officer, Unmanned Aviati on and Strike
  Weapons, requi re that the:

          a. Broad Area Marit ime Survei ll ance program offi cials establ ish objective award
  fce performance criteria as req uired by the Office of the Under Secretary of Defense fo r
  Acqu isition, Technology. and Logist ics memorandum. " Proper Usc of Award Fee
  Contracts and Award Fee Provisions," April 24, 2007.

  RES PO 'SE: Do nOI concur. The Office of the Under Secretary of Defe nse for
  Acquisit ion, Technology, and Logist ics (OUS D (AT&L» Defense Procure ment
  Acq uisi tion Policy (DPAP) memo of Apri l 24. 2007 states, " It is the pol icy of the
  Departme nt that objecti ve cri teria wi ll be util ized. whenever poss ible. to measure contract
  pe rformance". The April 24. 2007 memo did not apply to solici tations issued be fore I
  August 2007. The BAMS solicitat ion was issued on 15 February 2007; thus. the policy
  doc .. not apply. The BAMS program office in July to October 2006 ti me period.
  conducted inccOI ivc discuss ions with NAVAIR leadership to establish an effective award

                                                                                    Enclosure ( I)




                                                             27

                                                                                                    Final Report 

                                                                                                     Reference






fcc plan wh ich would include objective performance criteri a whenever possible. These
d iscussions look inlo accounl; current award fee envi ronment, combi nation o f base fcc
.md award fee. four performance evaluation factors/criteria (cost. technical, schedule and
mnnagcmcnt) whic h are variably weig hted towards total program outcome, dependcnI on
phase o f program and risk, and focused on critical program milestone events, These four
eval uat ion factors/cri teria are "objective like" criteria that aim to inccntivize contractor
throughout the e ntire System Design and Development (S DD) phase. This contract
incentive str.lIcgy was approved by NAVA IR leadershj p and resulted in the BAMS
Award Fee Plan which incorporated the objective performance cri teria that wo uld
motivate the contractor to de li ver beyond minimu m contrac t requi rements , reward for
improveme nt and ri sk mitigation and prov ide the government nex ibility to respond to
issues/risks.

        b. Broad Area Marit ime Surve illance fee de termining offi cial establish an award
Icc review board that complies with the Dcpan ment of Navy, "Navy/Mari ne Corps
Award Fee Guide," July 2004.

RESPONSE: Pani ally concur. The avy/Marine Corps Award Fee Guide, July 2004,
C haptc r I. pmagraph 1.0 states 'Thi s gu ide provides guidance and a framework that
should be considered and applied, as appropriate when using award fees , while leaving
the Fcc Determi ning Officer (FDO). Award Fee Review Board (AFRB ) and Contract in g
Officcr the lalitude to make changes to fi t the procurement." The BAMS VAS program
                           Click to add JPEG file
and NA YA IR legal used the Navy/Marine Corps Award Fee Guide as its overarchin g
fati onale. as appropriate in the establi shment of lhe BAMS VAS Award Fee Pl an and the
conduct o f the award fee board. The BAMS UAS Program does not conc ur with the
assenion wi thi n the report sections on prohibited members on the award fcc rev iew
boards, contractor personnel e rroneously included on the award fee review boards and
performance monitors not doc umenting contractor performance or maintaining their own
records. However. lhe BAMS VAS program will e nsure that BAMS VAS Award Fee
Plan perfo rmance monitors do not vote du ring board meetings.

       b. (cont inued) The Broad Area Marit ime Su rveillance fee dete rmi ning offi cial and
the award fee review board me mbers should :

               ( 1) Develop clear and Objective grading criteria to clarify their expectation
        and ince ntiv ize the contractor by ex plainin g to what ex tent the contrac tor needs to
        perrorm to earn eac h rating in the award fee plan.

RES PO SE: Do not conc ur. As stated in the Navy/Marine Corps Award Fee Guide,
"Objective measurements should be uti li zed, to the maximu m ex tent possible, to suppan
the subjective eval uation of the contractor's perfor mance." The BAMS UAS Award Fee
Plan under contrac t stipulates in Secti on 8.0 Award Fee Evaluation Objectives and Annex
5. provides grade definition and evaluation criteria. The BAMS UAS Award Fee Plan
stales, " Award fcc criteria will be based on objectives associated with major program
events in each AFEP and effecti ve application or a Pe rformance Measure ment Base line
(PM B)." T he Award Fee Plan takes into consideration objecti ve cri teria suc h as


                                                2                                 Enclosure ( I)




                                                            28

                                                                                                   Final Report 

                                                                                                    Reference






Schedule Performance Index and Cost Performance Index as we ll as subjecti ve cri teria.
The Pl:,m has established fou r evaluation criteria: coSt. technical, schedule a nd
management which are used to determine performance under the contracl. Each of these
fOLIf evaluat ion criteri a contai ns two 10 three quantitative measurements and two to three
qualitative measurements.

               (2) Revise and reissue the Broad Area Maritime Surveillance award fee
phmlo:

                        (a) Include additional criteria for the interim award fee eva luation
ex plaining acceptab le timeframes for providing the contractors the resuhs in accordance
wit h Ihe Department of avy. "Navy/Marine Corps Award Fee Guide," Jul y 2004.

RESPONSE: Do not concur. The BAMS UAS Award Fee Plan contains "Section 4.0
Award Fee Processes, paragraph b. Interim Evaluation Process" that currently addresses
iOlerim award fcc evaluation and the timeframe in which contractor is provided the
in terim evaluation at the midpoint of the evaluation period . Per the BAMS Award Fee
plan. the contractor is provided evaluat ion criteria at the start of the new award fee period
thai stays in effect for the entire period including interim eval uation. Ofnotc. thc
performance criteri a are incorporated by mutua l consent of the panies 30 days prior to the
start of the new Award Fee period. The Navy/Marine Corps Award Fee Guide docs nOI
stipulate timeframes for providing the cont ractors the results for the interim award fee
                          Click to add JPEG file
evaluution other than "When evaluation periods exceed six months, an interim (mid-Ienn)
eval uation shou ld be considered for maimaining good communication between the parties
and consistency of contractual documentation." The BAMS UAS program };trivcs to
provide the result s of the performance monitors interim evaluations to the contractor 30
da ys afte r the end of the intcrim award fcc period "to ensure effective communication and
provide feedbac k to the con tractor on its performance" .


                       (b) Incl ude additional criteri a for award fee peri od evaluation to
provide the contractor more timely feedback at the end of the awa rd fee evaluation period
in accordance with the Department of Navy, "Navy/Marine Corps Award Fee Guide,"
Jul y 2004.

RESPONSE: Concur. However, the BAMS UAS Award Fee Plan under contract does
stipulate in Section 4.0 Award Fee Processes, paragraph c. End-of-Period Evaluations.
"The FDO will detcrmi ne the overall grade and earned award fee amount for the
evaluat ion period wi thin 75 ca lendar days ~\fter each evaluation period. The
Navy/Marine Corps Award Fee Guide states that programs should consider "The FDO
will determi ne the ove rall gmde and earned award fee amount for the evaluation period
withi n (insert number of days, but no more than 45) ca lendar days after each evaluation
period.". The BAMS UAS Program will modify the Award Fee Plan to renect providing
the contractor an overa ll grade and earned award fee amou nt for the evaluation period
within 45 calendar days after each evaluat ion period.



                                               3                                 Enclosure ( I )




                                                          29

                                                                                                    Final Report
                                                                                                     Reference




                       (c) Prohibit all contrac tor personnel from being members o f the          We renumbered
awa rd fe e review board and participating in the award fee determi nation process as             draft report
required by the Department o f Navy, "Navy/Marine Corps Award Fcc Guide," Ju ly 2004.             Recommendation
                                                                                                  1.b.(2)(c) to final
RESPO. SE: Partially concur. The avy/Marine Corps Award Fee Gu ide states that;
"The AFRB (Alv(lrd Fee Review Board) is composed of Governme nt perso nne l only                  report
whose experience in acquisi tion allows them (0 analyze and evaluate the contractor's             Recommendation
ove rall performance." The inten t of this paragraph was to eli minale a past DoD pmcticc         1.b.(3)(b)
of allowing the Prime Contractor from being prescnt during evaluations of its own
performance. The BAMS UAS Award Fee Plan under contract stipulates in Section 3.0
Responsibilities. paragraph b. Award Fcc Review Board. ';Thc AFRB should not inc lude
Prime Cont rac tor personnel and they should not be present during evaluation discussions
or during presentations made by Performance Monitors." The DoDIG audit finding
refers to a BAMS UAS PMA·262 program Sllpport contractor that had served as AFRB
recorder and had signed the appropriate Non·Disciosure Agreement (NDA) to s upport the
program office. A CSS contractor did serve as the recorder for the Award Fee Board. but
he did not have any financial interest in the outcome of the award fee decision and this
CSS si mpl y acted as a scribe for the proceedi ng. and he was not a voting member of the
Board. NAVA IR agrees that it would ha\le been preferable to use a Government
em pl oyee as the Board Recorde r. but the integrity of the procurement process was never
in issue. The CSS contractor had an NDA and acted only in a mini sterial func tion to
assist the Board.
                          Click to add JPEG file
                        (d) Issue award fec eval uation cri teria 3{ least 30 days before the     We renumbered
start of the evaluation period as required by the Department of Navy. "Navy/Marine                draft report
Corps Award Fee Guide ." Jul y 2004.                                                              Recommendation
                                                                                                  1.b.(2)(d) to final
RESPO SE: Partially concur. The BAMS Award Fee Plan supports the Depanment of
  ;IVY, "Navy/Marine Corps Award Fcc gu idance. Howeve r. the BAMS UAS program
                                                                                                  report
incurred a 100 day delay as a result of protest by an unsuccessful offeror. The protest           Recommendation
WilS not upheld by the GAO. The program restarted August ~OO8 and amended the                     1.b.(3)(c)
Award Fee Plan to address the protest delay. Per the BAMS UAS Award Fee Plan under
contract "Changes to this plan that are app licable to a current period wi ll be incorporated
by mutual consent of the panics." The program and contractor negotiated changes and
amended the plan (Rev I) dated 26-Mar-09 and the most significant changes were to
Period I and Period 2 criteria. significant events. award fcc allocations and period end
dates. The origi nal BAMS Awmd Fee Plan periods were (0 be one year in length but due
to the mutual agreements Period I became seve n months in length (contract award/restart
date ( I I Aug 2008 to 31 Mar 2009) and Period 2 became six mon ths in length (I April
2009 to 30 Sep 2009. The BAMS UAS Program does not concur with the reports sect ion
" Failed to provide time ly reedback" but concurs the BAMS UAS Program was late for
the first evaluation period.

                       (e) Provide the COnlractor an interim award fee evaluat ion for
every aWilrd fee period longer than six months.



                                               4                                  Enclosure (I)




                                                           30

                                                                                                Final Report 

                                                                                                 Reference






RES PO NS E: Part ial ly concur. The BAMS Award Fee Plan supports the Department of
 avy. "Navy/Mari ne Corps Award Fcc guidance. The BAMS UAS Award Fee Plan
under contract contai ns "Section 4.0 Award Fee Processes, paragraph b. Interim
Evaluation Process", in wh ich the con tractor is provided an interim award fee evaluation
at the midpoint of the evaluation period. The BAMS Award Fee Plan envisioned periods
of no more than twe lve months in length. which would mean no inle ri m peri od would
exceed six months. As explained in response 10 paragraph (d) above, for Period I and
Period 2 there were interim award fee periods in excess of six months. bUl lhc
circumstances thai created the extraordinarily long interim periods also contributed 10 the
inabili lY10 provide inlerim award fee eval uation s in a limely manner.. The BAMS UAS
Program does not concur with the reports section "Failed to provide ti mely feedback" bUI
concurs Ihe BAMS UAS Program was late for prov idi ng an interim award fee evaluation         We renumbered
during thc first evalualion period.                                                           draft report
                                                                                              Recommendation
                                                                                              1.b.(2)(f) to final
                       (0 Foll ow the revised award fee plan when maki ng award fec
evaluation determinat ions.                                                                   report
                                                                                              Recommendation
RES PONSE: Concur. The BAMS UAS program will foll ow Ihe revised award fee Plan               1.b.(3)(a)
under coniraci.

                        (g) Require performance monilor personnel to pre pare wriuen
                         Click to add JPEG file
records of comractor perfo rmance and hold the perfo rmance monilor personnel
accountab le for their wriuen documentation.
                                                                                              We renumbered
RES PO NSE: Partially concu r. The BAMS Award Fee Plan supports the Department of             draft report
Navy, "Navy/Marine Corps Award Fee guidance wilh respeci to performance monitors
                                                                                              Recommendation
muinln ini ng written records. The BAMS UAS Awurd Fee Pl an undercontraci does call
out in Illu ll iple places the responsibi lities o f members of the AFRB and perfonnance
                                                                                              1.b.(2)(g) to final
monilor personnel the requ iremenl to ma inlain wri uen records of the contractor             report
performance. The members of the AFRB and performance monitor personnel are                    Recommendation
provided trai ning upon nomination to role of either AFRB member or performance               1.b.(3)(d)
monitor. and understand and take the responsibi li ly of bei ng a member of the AFRB
serious ly. The BAMS VAS Award fee Plan and the guide stale the usc of contractor sel f·
asscssmenl as a tool 10 "assist the AFRB in evaluating the contractor's performance".
However. some o f our performance monitors usc. per their competency standards of
practice. the con tractor's deliverable data (i.e. Cost Performance Report and Integrated
Master Schedule) and cross check Ih is in formation again st the contractor provided data
with NAVA IR internal tool s in verifyi ng the accuracy of the contractor deliverables. The
BA MS UAS Program wi ll ensure performance monitors written documentation is
c;'lplured in support of eac h evaluation period.


                      (h) Prohibit performance monitor personnel from bei ng present          We renumbered
during (he award fee review board raling and fee determination discussions.
                                                                                              draft report
                                                                                              Recommendation
                                                                                              1.b.(2)(h) to final
                                             5                               Enclosure ( I)
                                                                                              report
                                                                                              Recommendation
                                                                                              1.b.(2)(c)




                                                        31

                                                                                                         Final Report 

                                                                                                          Reference






RES PONSE: Concur. The BAMS UAS Award Fcc Plan will be updated to include the
st ipulation that   Per fo rm ~lOce   M onitors should nOI be presen t during the award fee review
board rat ing and fee determination di scussions.

                            (i) Exclude performance monitor personnel from being award fee
                                                                                                       We renumbered
re"iew boa rd members.                                                                                 draft report
                                                                                                       Recommendation
RES PONSE: Concu r. The BAMS UAS Award Fcc Plun will be updated to include the                         1.b.(2)(i) to final
st ipu lation that performance monitors should n OI be AFRB members.                                   report
                                                                                                       Recommendation
                                                                                                       1.b.(2)(d)




                                                     6                               Enclosure ( I )




                                                                32


                                                                                                   Final Report 

                                                                                                    Reference






RECOMMENDATION 2: Assistant Commander for Contracts. Naval Air Systems
COlllmund. instrucllhc Broad Area Maritime Surveillance contracti ng office r to:

       a. Conduct a cost·bcnc fit analys is   10   determine whether a cosi-plus-award-fee
contract is appropriate for the Broad Area Maritime Surveillance progrJm and include the
analys is with the determination in the comract file.

RESPONSE: Do not concur. Appropriate ana lysis and justification fo r using a CPAF
contract was conducted prior to the release of the BAMS solicitation. PMA-263 (BAMS
was init ially under PMA-263) provided a presentation titled "BAMS UAS Contract
Incenti ve Discussion" dated 25 Jul y 200610 the AIR-2,4 Department Head for AIR- LO
& PEO(U &W) programs. The 25 Jul y 2006 presemation was followed by a presentation
to AIR-2 .0 on 17 October 2006, titled "BAMS UAS Overview for AIR 2.0."
Additionally. the type of contract rationale was furt her documented in the Busi ness
Clemance. which was approved two levels above the Contracting Officer by AIR-2.4.
The Bus iness Clearance states. "Any add itional adm inistrati ve effon and cost required to
monitor and evaluate performance are justified by the expected benefits." The contractor
is pe rfor min g at this time. Shou ld contract performance significant ly decline. NA YAIR
will fe-examine the effectiveness of the contract type.

       b. Adhere to the award fee criteria from the Under Secretary o f Defense for
Acqubition, Techno logy. and Logistics memorandum. "Proper Use of Award Fee
                          Click to add JPEG file
Contracts and Award Fee Prov is ions," April 24. 2007.

RESPONSE: Do not concur. The BAMS solicitation was released on 15 February 2007
and conformed to ex isting direction for the proper use of Award Fee cont racts. Under
Secretary of Defense for Acquisition. Technology. and Logistics memorandum. "Proper
Usc o f Award Fee Contracts and Award Fee Provi sions," April 24, 2007. was effective
fo r solicitation s issued after I AugusI2007 . As such. it did not apply to BAMS.

        c. Review the rollove r award fee paymelll to determine an appropriate amount in
ilccordance with the Under Secretary of Defense for Acquisit ion. Technology. and
Logistics memorandum. "Award Fee Contracts (FA R 16, DFARS 215. DFARS 216)."
March 29, 2006.

RE.Ii)PONSE: PaI1ially concu r. The OUSD(AT&L)) memorandum, " Award Fee
Contracts (FAR 16, DFARS 215. DFARS 216)," March 29. 2006, states, " U rollover is
used. the contractor may onl y earn a ponion of the ree that was rolled over, even for
s ubsequent excellent performance." The BAMS program met the intent of the directive
by only making 75% o f the unpaid ree available for rut ure awards. By excludi ng 25%.
the contractor was put on notice thm the best tlley could do wou ld be to recover 75% or
the total unearned fee. For Award Fee Evaluati on Period 1. NOI1 hrop Grumman Systems
Corporation ( GSC) received 589 1.763.05 o r the 100ai $2.279.332.35 available for
award. Seventy-five percent (S 1.040.677) of the unearned fee was placed in the Reserve
Fee pool. In accordance with the Award Fee Plan , NGC received 100% for an
"Excel lent" rating, of the available fee for dealing with joint efficiencies between the Air


                                                   7                             Enclosure ( I )




                                                             33

                                                                                                   Final Report 

                                                                                                    Reference






Force Global Hawk program and the BAMS UAS program.              AVA IR Comracts has
reviewed the rollover award fee payment and concluded thai the FDO (PMA·262
Program Manager) determination was within his authority. Since only 75% of the funds
IIml could have been rolled over were paid to the contractor, the FDO' s actions where in
accordance with US D(AT&L) memorandum. While past actions are in accordance with
policy. NA VA IR wil l fe-examine Ihe effectiveness of using "rol led over fee" under lhis
contract.
        d. Recoup any overpayment 10 the contractor fo r the rollover period based on the
revised determination.

RESPONSE; Do nOI concu r. As staled in recommendation 2.c. above, the execu tion of
lhe ro llover (reserve pool) mellhe intent of Under Secretary of Defense for Acquisition,
Technology, and Logistics memorandum, "Award Fee Contracts (FA R 16. DFARS 215,
DFARS 216)," March 29. 2006.


REV IEW OF INTERNAL CONTROLS: DOD Instruction 5010.40, "Managers'
Interna l Control (MIC) Program Procedures," January 4,2006, requires DOD
organizmions ( 0 implement a comprehensive system of internal controls that provides
reasonable assurance that programs arc operating as intended and to evaluate the
effectiveness of Ihe control s. We identified internal control weaknesses in the
management and implementation of the BAMS award fee process. Specifically. the
                          Click to add JPEG file
BAMS con tracting officer and program officials did not justify the use of a CPAF. type
com met. develop an adequate award fee plan. perform proper contractor evaluations, or
justify the usc of a rollover award fee period. Implementing the recommendation s in Ihis
report wi ll improve the internal controls over the BAMS award fee process.

PEO(U&W) I NAVAIR COMMENT ON INTERNAL CONTROL WEAKNESS:

 P;mially Concur. As stated in previous responses, PEO(U&W)INAVA IR believe that
appropriate justification ex isted for the use of a CPAF type con tract and that the resulti ng
award fee plan was adequate. Where applicable. imernal contro l monitoring will occur
within PEO(U&W) and NAVAI R Contracts. The award fee plan will be modified to
address the time liness of assessments and associated contract modifications. The BAMS
UAS program will presen t the timeline/actuals in which the assessment and contract
mod ifications arc made and the list of AFRB attendees, al semi·annual Executive Review
Boards held with PEO(U&W). PEO(U&W) and NAVA IR Contracts concur wi th the
previous use o f the Reserve Pool/Rollover. Should the use of Reserve Pool/Ro llover for
Ihe BAMS UAS be deemed appropriate in the future, detailed justification will be
included in the contract fi le. PEO(U &W) and NA VAIR Contracts will be provided the
deta il s of the justi fi cation and ensure that con tract file s are appropriately maintained.




                                               8                                 Enclosure ( I )




                                                          34

